                                                         NATIONAL SCIENCE FOUNDATION
                                                          OFFICE OF INSPECTOR GENERAL
                                                            OFFICE OF INVESTIGATIONS       ...
                                                CLOSEOUT MEMORANDUM                              '




                   We initiated an investigation after receiving an allegation that the subject' had falsely
           charged personal expenses to an NSF Grant to a university.2 Our investigation substantiated that
           the subject made personal purchases using a university issued Purchase Card and then charged those
           personal'expenses to various university accounts, including the NSF Grant. We referred this matter -
           to the US Attorney's Office in Atlanta. On March 4,2008, the subject was indicted in the United
    :   , .States District Court-forthe-Northern District of.Georgia, for 17 counts of Title 18.U.S.C. 8 134.1, ,'



                                                                             2:




          .. ' . ,On May 13,2008, the subject entered a plea of Guilty to all~countsand on August 19,2008,
          was sentenced by the court to be.imprisoned for 32 m~nths,.fo~lowed         by 3 years of supervised
          release, fined $2,200, ordered to pay restitution of $3 16,874.12, and ordered to perform 250 hours of
          community service. (Attachment 2)

                We recommended that NSF debar the subject for a period of five years. On June 17,2009,
          NSF debarred the subject until March 17,2014. (See Attachment 3)

                     Accordingly, this case is closed.


                                        ,-




                                                                                                               i




          I
              Donna Renee Gamble
          2
              Georgia Institute of Technology



NSF OIG Form 2 (1 1/02)
                                                                                  FILED IN GHAMBERS
                                                                                    lJ,S.D.C. Atlanta
                       IN THE UNITED STATES DISTRICT COURT
                                                                                                MAR                         ...     4 2008
                       FOR THE NORTHERN DISTRICT OF GEORGIA
                                                                                  JAMES N. HATTEN, Clerk
                                   ATLANTA DIVISION

j   UNITED STATES OF AMERICA                                                                L




,
                                   I
I                                                           CRIMINAL INDICTMENT
            v.

    DONNA RENEE GAMBLE,

            Defendant.                      ,   .                                               .
                                                                                                C
                                                                                                :                .        a
                                                                                        -Ff"                              cw         -,...       >

                                                                                                3                         2,E         ,."..,.I

                                                                                                 -                                    ;-:"'!
                                                                                        -
                                                                                        2                ,                :7v
                                                                                        4 +
                                                                                                                          ;3
                                                                                        - ._.
                                                                                                ,
    THE GRAND JURY CHARGES THAT :                                                                                           I          ,.-*'
                                                                                        -
                                                                                                 i                   .
                                                                                        . ... 2:-
                                                                                        __.
                                                                                          --..
                                                                                                    -3       :
                                                                                                                          L?           :, ;
                                                                                                                                        ...,.
    At all times material to this indictment:                                           ,                                 E
                                                                                        rr                           ''



                                                                                                                                         ,;
                                                                                                                                          .- I.
                                                                                                                           -
                                                                   .   .                             ,       .



                                       1ntroduc.tion
                                                                                        ,-, 7 c.7
                                                                                        1

                                                                                        -n:
                                                                                            -
                                                                                            ->       .
                                                                                                                           -
                                                                                                                           A

                                                                                                                                -
                                                                                                                                         r-r:
                                                                                                                                          13
                                                                                            -<                             +
                                                                                                                           -
                                                                                            36                              4
            1.   The defendant, DONNA RENEE GAMBLE, was employed :-by the  .




    Georgia Institute of Technology                 ('Georgia              Tech") , in Atlanta,

I   Georgia, where she was assigned to the Parker H. Petit Institute
    for Bioengineering .and Bioscience              ( "IBB")   .
            2.   The   Georgia     Tech    Research            orp para ti on,      a                ~eorgia

    nonprofit     corporation, served as              the      contracting agency                                                   for              ,
    sponsored research projects performed by ~eorgiaTech.

            3.   All grants provided to Georgia Tech were accepted by the

    Georgia Tech Research Corporation and subsequently subcontracted to
                             t '
    Georgia Tech for the project performance.
            4.   The Georgia Tech/Emory Center for the Engineering of

    Living Tissues, which was-establishedas an ~ngineeringResearch
    Center by the National Science ~oundation("NSF"), an agency of the

    United States Government; was funded by NSF and headquartered at
    IBB .
             5.    NSFGrantNo. 9731643, titled "ERC: Research~ehterfor
        the Engineering of Living tissue^,^' was administered at IBB.

             6.    As an employee of Georgia Tech, the defendant, DONNA
        RENEE GAMBLE, had access to one or more Georgia Tech credit cards,
    I
        also known as Procurement Cards or "P-Cards," which she was allowed

        to use for authorized official business purchases only.

             7.    The defendant, DONNA RENEE GAMBLE, was prohibited from

        charging personal purchases on her Georgia Tech P-Cards.

             8.    The defendant, DONNA RENEE GAMBLE, was required to submit
        her monthly P-Card statements to her supervisor, along with
        receipts for the items charged to her P-Cards.

                                    COUNTS 1-17

                                 18 U.S.C.     5 1341

                                    Mail Fraud

~
I


             9.    The allegations contained in the preceding paragraphs of    ,


        this Indictment are realleged and incorporated herein by reference.

                        Purpose of the Scheme and ~rtifice
             10.   From on or about April 24, 2002, and continuing to on or
        about April 23, 2007, in the Northern District of Georgia, the*
        defendant, DONNA RENEE GAMBLE, devised and intended to devise a
        scheme and artifice to defraud Georgia Tech and NSF by using
        Georgia Tech P-Cards to charge personal purchases, and to obtain
        money and property by means of false and fraudulent pretenses,
        representations, and promises.


                                         -2-
                               The Scheme and Artifice

              11.   It was part of the scheme and artifice that:

                    (a) The defendant, DONNA RENEE GAMBLE, purchased more

1   I/   than 3,800 personal items by charging them to her Georgia Tech

         P-Cards, at a total.cost of more than $316,000.

                    (b) NSF   funds were   used    to pay   for the personal
I
         purchases that the defendant, DONNA RENEE GAMBLE, charged to her

I        Georgia Tech P-Cards.

                    (c) In an effort to conceal and disguise the personal
1        nature of certain charges on her ~eorgia Tech P-Cards, the

         defendant, DONNA RENEE GAMBLE, created fake receipts and submitted

         them to-hersupervisor, t o make it appear that those charges were

         for authorized official business purposes;

                    (d) In an effort to conceal and disguise the personal
         nature of certain charges on her Georgia Tech P-Cards, the

1
                               r

         defendant, DONNA RENEE GAMBLE, made and caused to be made false
    m
    i

         entries in Georgia ~ech'saccounting.records.

                                    The Mailinqs
              12. On or about the dates set forth below, the Defendant,

         DONNA RENEE GAMBLE, for the purpose of executing the scheme and
         artifice, and attempting to do so, did knowingly cause to be

I        delivered to
                                                               i
                                                                   ,by mail and

         by private and commercial interstate carrier, the following matters
         and things, according to the directions thereon:
November 10, 2004     Barrington Model 801 Oboe
August '17, 2005      Makita G2800L, 2800 Watt Power
                      Generator
September 12, 2005    RV Air Conditioner (15K -
                      Heat/Cool) - Complete Assembly -
                      Color - Ivory
October '11,2005      philips 32PF9630A 32" Widescreen
                      LCD HDtv
                     - -          -




February 20, 2006     U-Line Icemaker
March 1, 2006         Poulan PB1842LT Lawn Tractor 42"
                      Cutting Deck 6 Speed, 18 HP
                      Briggs & Stratton Engine
April 17, 2006        Bunn ULTRA-2, Frozen Drink
                                                         \
                      System; White Stainless Steel
May 10, 2006          Honda Powered Pressure Washer
                      2600 PSI 5 Hp Comet Pump 2.5 GPM
                      with Wheels
May 17, 2006          Bushnell Elite 8x43
                      Waterproof/Fogproof PC3 Magnesium
                      sinocular
June 19, 2006         RV Air conditioner, Complete
                      (13.5K / Cool Only / Non-Ducted)
                      - Color - White
August 23, 2006      whirlpool Gold GU2400XTPB 24"
                     ~uilt-InDishwasher with 5
                     Automatic Cycles, 14 Place
                     Setting Capacity & Glass Xpress
                     Cycle: Black on Black
August 25, 2006      Maytag MEW5627DDB 27" Electric
                     Double Wall Oven with Two
                     Self-Cleaning Ovens and 2 Oven
                     Racks per Level: Black
September 19, 2006   Frigidaire FFU2124DW 20.6 Cu. Ft.
                     Upright Freezer with Manual
                     Defrost & 4 Fixed Shelves
                                  -
October 31, 2006     Crosley Mini Bubbler Jukebox
                     (WR18-CR)
                    s7#sg?pr,'
 ~;;jjii];~.71g.h:,a~i?,,
       ;z%3t:,,,:#:c!!,;.~,      ..!.*;
                                           " .m..*.-
                                                 .
                             ~~9;2,@~i;4s4&f$Q~~~4$[&fit$~#4$~@@y~@$$$~2$l          ~ $ ; $ ~ ~ ~ ~ @ $ \ l ~ $ : i ! j $ f i > f @ $ 4 > ~ ~ ~ ~ @ ~ ~ @ $ ~
                                                           b               .,I%.X
                                                                                    :".~;Es
                                                                                          ~.@~pP~~~~~~<i;;~il~9.1$e$~ia~~ii';,,i                      Y p P , . , , o,,wj?;:,fi;P I ;~;:ibr~:i~l;
                                           g               ,+<&,,z;;j.!,$;+$$i?$j$;$ 4g@z;,
 ~    ~    ~        ~       ~~'6~~~~~~,~,,,;~~j~I;~igi~.I'i~L:IQBpi"i~;~~;;~,,~P";I~$~~i~~~/I!~j!j/
                                  ~     ~     :      : ~    ~       i     1   :
                               ; ~ ~ p ~&$!!!>?
 ~ ~ ~ ~ w ~ ; i j ~ d 2$;;F2c;&s         \ ~ . 4fj8,s;&;;i.!:
                                                 ~ $                                .$     p;<J,;: $?;ig: El;$7i2i:$q{:&i2$&i~;::!;:~:{~i$,&:2~;;!;~i~~\j$Ef~df;<l3~>;?(~~;!~i~$!r$~$?!$i~$~if~

          15.                              November 3, 2006                                                                         ~ o i Competition
                                                                                                                                          t           Soccer Foosball
                                                                                                                                    Table Game
          16.                              April 16, 2007                                                                           ~ylvania6620LDG 20" Flat Panel
                                                                                                                                    LCD TV with Built in DVD player
          17.                              April 17, 2007                                                                           MAKITA 24.5 CC 4 Cycle Gas slower
                                                                                                                                    Model BHX2500

All in violation of Title 1'8, United States Code, Section 1341.

                                                                                                                            COUNTS 18-22

                                                                                              18 U.S.C.                               1 666(a) (1)(A)

                                   Theft from an Organization Receiving Federal Funds

                        13.                    The allegations contained in the preceding ~aragraphsof                                                                                                                                                                                                 .


this Indictment are realleged and in~~rporated
                                            herein by reference.

                        14. During each one-year period identified below, Georgia
Tech received federal assistance in excess of $10,000, and, in the

Northern District of Georgia, the defendant, DONNA RENEE GAMBLE,

being an agent of ~eorgiaTech, in that she was an employee of IBB,

did embezzle, steal, obtain by                                                                                                                          fraud, and otherwise without
authority knowingly convert to the.use of a person other than the'.
rightful owner, money and property valued at $5,000 or more, which

money and property was owned by or under the care, custody, and
control of Georgia Tech:                                                                                                                            1


            . ...:..,".:..,,,.,,
        ; ,?
                          ",,,..., ...
                                                             :,
%.a,....                           .".,a
                                                                                                                        ! ) ;                , : , <;
                                                                                                                                                                                                                                                                                       7 -,
                                      Fyaa,p!k:,p:6                             E;xo: ;;;:,,
                                                                                                                                                                                                                                                                         '
                                                  ,                                                                                                            ,, ,: -: :  ? .:              ; -. :         :      :       .      !      :      :    !     :     :       ;     :
j,,   ,



          @;  ;
              :> :
                               ,



                               $ii$~;$;,7~~~        ;c,srr"     :;?::;,,
                                                                         '

                                                                          +,, ,,
                                                                                                           :z:   +5y,,,;, ?,:!:; ;j$,$''c:22;ecjTJ:
                                                                                                                                  :
                                                                                                                                  ! >:
                                                                                                                                     $ r;
                                                                                                                                        ;
                                                                                                                                                    :,
                                                                                                                                                         ,:;%,.
                                                                                                                                                      ,. .,,
                                                                                                                                                                2 -

                                                                                                                                                                       :!.;,i,!!:!:;y;~~~i5~g;~$2rr:;x~,~~?,~!~~y~~;~;$.~.~!.:~:.~x~~~
                                                                                                                                                                      ....>.?+
                                                                                                                                                                                                                                                                               +




                                                                                                                                                                                           .'t .,,<,p: . . : - ? . . $ ! : t ~ ; , 2 { j ~ ~ : , ? ~ ~ ~ ~ ~ ~ i , ; ~ ! i ~ ~ ~ f : ~ ~ ~ ~ , ~ ~ ? ~ ~ ? ~ ~ ~ ~ $ f i ~ ~ ~ : ~ /
                                                                                                                                                                               s> ;?<,'? ...
!~i53;F~p~vxsA~k~~$$/
             ,', ,.*,'6,
                         :!,,q
                                  .,.,,,* .,.:. ;,; .     .,?
                                                                                                  !;j>$z:,+&c::T$
                                                                                                 .+**,,
                                                                                    .........................
                                                            ~,:,~r~';,.;!;>~:<:~~~~<!~t:<:$;~,:,~<          ,A,,; :,!Jj,;x;l:&:;:::
                                                                                                                                          ,,:;:,.
                                                                                                                                         <a
                                                                                                                                          ie        ;       ~:,:;:;
                                                                                                                                          ~ ; . > , > ~ ~ ; : ~ ) ~ s ~ ~ ~ ~ : ~ . : : ~ : ~ i * ~ ; ~ ,;,:~                                                                               ?+,!.: $ ~ ~ ~ ~ ~ ~ ; :

      is.                          September 1, 2002 through August 31, 2003
      19 .                         September 1, 2003 through ~ugust31, 2004
      20.                          September 1, 2004 through ~ugust31, 2005
     21..    September 1, ,2005 through ~ugust31, 2006
     22.     September 1 , 2006 through August 31, 2007

    All    in violation of    Title   18, United   States Code, Section

i   666 (a)(1)(A).
                        CRIMINAL FORFEITURE PROVISION

           15. The allegations contained in the preceding paragraphs of

    this Indictment are realleged and incorporated herein by reference.
           16.   Upon conviction of one or more of the offenses in

    violation of Title 18, United States Code, Section 1341, set forth

    in Counts 1 through 17 of this Indictment, or one or more of the
    offenses in violation of ~ i t l e18, united States Code, Section

    666 (a)(1)(A), set forth in Counts 18 through 22 of this Indictment,
      .~




    the defendant, DONNA RENEE GAMBLE, ,shall forfeit to the United

    States of America, pursuant to Title 18, United States Code,
    section 981(a) (1)(C) and ~ i t l e28, united States Code, section

    2461 (c), any property, real or personal, :which constitutes or is

    derived from proceeds traceable to the offense (s) of conviction.

    The property to be forfeited includes, but is not limited to, the

    following:
                               f
                 (a) MONEY JUDGMENT
                     A sum of money equal to $ 316,000 in
                     United States currency, representing
                     the amount of proceeds obtained as a
                     result of the mail fraud offenses
                     alleged in Counts 1 through 17 of
                     this Indictment, in violation of
            ~ i t l e 18, United States Code,
            section 1341, and the offenses
            involving theft from an organization
    i
            receiving federal funds alleged in
            Counts 18 through 22 of this
1
1
            Indictment, in violation of Title
            18, United States Code, section
            666 (a)(1)(A).
        (b) PERSONAL PROPERTY

            (1) Coral Pink Nintendo DS Lite;

            (2) Olympus        Stylus    710   Digital
               )camera;

            3         H P Pavilion   Laptop,    Serial
                      #2CE528MJB;

            (4) Barrington Model 801 Oboe;

            (5) Gateway 838 GM Computer,,Serial
                #XAB5911010237,      Keyboard,
                Mouse,    Power    Cord,    and
                Speakers;

            (6) 20" Axion Flat Panel Television
              . and Power Cord;
                  .



            (7) Electric Blue Nintendo DS;

            (8)       HP Pavilion DV4OOO       ~aptop,
                      Serial #2CE5280MQC;

            (9) Crosley Mini         Bubbler Jukebox
                      (WR18-CR);

            (10) Axion    20I'          Flat    Panel
                 Television;

            (11) Bunn Ultra-2 Frozen Drink
                 System, White Stainless Steel;
            (12) Poulan PB1842LT Lawn Tractor
                 with 42" Cutting Deck and 6
                 Speed, 18 HP     Briggs  and
                 Stratton Engine;
(13) Makita G28001 2800 Watt Power
     Generator;     t


(14) Dewalt DC6KTGA 18-volt, 6 Tool
     Cordless Combo Kit;,

(15) Honda Powered Pressure Washer
     2600 PSI 5 HP Comet Pump, 2.5
     GPM, with Wheels;          \




(16) 42" Dual Bin Bagger;
(17) 1 of 2, Auburn White Canopy by
     Logo Chair;

(18) 2 of 2, Auburn White Canopy by
     Logo Chair;

(19) Husqyarna      1 2 5 ~ ~Backpack
     Blower;

(20) Coleman Gas Log Patio Hearth;

(21) 7.4 Ft Outdoor Stainless Steel
     Propane/Butane Patio Heater
     with Wheel;
(22) centurion     Euro-style   -   Boat
     Cover;

(23) Sharp SD-EX220 160 Watt Single
     CD/AM/FM Micro System with
     1-bit Audio-Half Mirror-finish;

(24) Poulan Pro PP336 17" Straight
     Shaft Gas Trimmer/Brushcutter,
     31cc;

(25) 4 Lafuma Model 40804 RSX La
     Napoule    Recliner  Lounge           "
     [chairs], Green;
(26) Coleman ~ o a d t r iSport
                           ~    Grill;
(27) Yard Machines 021G 4.0 Hp Gas         ,


     Push Mower;
    \\
(28) Huffy Main Street          Women's
     Comfort Bike;
(29) 1 of 2, Kulana Luhi Women's
     Cruiser Bike;
(30) 2 of 2, Kulana ~ u h i Women's
     Cruiser Bike;
(31) Solar (SOLES5000) BOOSTER PAC
     Rechargeable   12V    Battery
     Booster - 1500 Peak Amps, 360'
     CCA;
(32) Makita 2 4 . 5 ~ 4~ Cycle      Gas
     Blower, Model BHX2500;
(33) Sima Stp-1000 Dual-outlet 1000 .
     Watt DC-AC Power Inverter with
     Soft Start;
(34) philips     32PF9630A         3 2 I'
     widescreen LCD HDTV;

(35) HP Pavilion     DV413OUS    15.4"
     Notebook PC;
(36) Infocus X2     Multimedia     DLP
     Projector;
(37) Gateway 838GM     ~ e d i a Center
     Desktop;
(38) HP Office~et 7410 All-in-one
     Printer;

(39) Sony MVCCD350 CD Mavica 3.2MP
     Digital Camera W/ 3x Optical
     Zoom;
(40) Olympus Stylus '110 7 .'IMP Ultra
    Slim Digital Camera with 3x
    Optical Zoom;
(41) Sony Cybershot DSCP2OO 7.2MP
     Digital Camera 3x Optical Zoom;
(42) BenQ FP737S-D 17" LCD Monitor;
                       (43) Olympus Stylus 710 7.1MP Ultra        I


                            Slim Digital Camera with 3x
                            Optical Zoom;

                       (44) Sirius Sportster Receiver;

                       (45) Draper 207010 Luma 4:3 Manual
                            Fall Projection Screen;

                       (46) Auburn Au Elite Leather Man's
                            Watch;

                       (47) Voit    Competition     ,    Soccer
                            Foosball Table Game;
                        \

                       (418) ~ i s s e i l 7950   Proheat
                             Self-propelled upright Deep
                             Cleaner;

                       (49) Proview HV-177 -      17" LCD TV
                            and Power Cord;

                       -(50) Samsung    ,LT-P1795W    17
                            HDTV-ready LCD      computer
                            Display and Power Cord;

                       ( 51)   Yamaha WaveRunner III ;

                       (52) Bounty Hunter Tracker IV Metal
                            Detector;
                   I
                       (53) Bushnell      Elite      8x4 3
                            Waterproof /Fogproof      PC3
                            Magnesium Binocular; and

                       (54) Sylvania 6620LDG 20" Flat Panel
                            LCD TV with Built in DVD
                            Player.

I        17.   If, as a result of any act or omission of the defendant,
    DONNA RENEE GAMBLE, any of the above-described property subject to

    forfeiture cannot be located upon the exercise of due diligence;
    has been transferred to, sold to, or deposited with, a third party;

I   has been placed beyond the jurisdiction of the court; has been
substantially diminished in value;.or has been commingled with

other property, which cannot be divided without difficulty, it is

the intent of the United States, pursuant to Title 21, United
States Code, Section 853 (p), as incorporated by ~ i t l e18, united

States Code, Section 982 (b), to seek for£eiture of any other

property of said defendant up to the value of the forfeitable

property described above.
                                    /     I


                               A                 --c.=                BILL


                                                              -
                                          \.c




                                   %+
                                                FOREPERSON


DAVID E. NAHMIAS
UNITED STATES ATTORNEY



JY RUSSELL PHILLIPS
ASSISTANT UNITED STATES ATTORNEY
~eorgiaBar Number 576335
                     -
600 United States Courthouse
75 Spring Street, S.W.
Atlanta, GA 30303
Telephone: (404) 581-6000
Fax: (404) 581-6181




                                                             MAR '4 2008
.   '    Case 1:08-cr-00084-JTC-AJB                  Document 15-2            Filed 0511312008           Page 1 of 14

                                                                                                      ORIGINAL
                                                                                                           .   .-        fk(3
                                                                                                                    L o C4


                            GUILTY PLEA and PLEA AGREEMENT                                                                      ....
        United States Attorney
        Northern Dlstrict o f Georgla
                                                                                                                ,      . ? 5;*,fiR.
                                         UNITED STATES DISTRICT COURT
                                         NORTHERN DISTRICT OF GEORGIA
                                               ATLANTA DIVISION

                                                                                                                                       J
                                                            CRIMINAL NO.           1:08-CR-084-JTC-AJB

        DONNA RENEE GAMBLE, d e f e n d a n t , h a v i n g r e c e i v e d a c o p y o f t h e a b o v e -
        n u m b e r e d I n d i c t m e n t a n d h a v i n g b e e n a r r a i g n e d , h e r e b y p l e a d s GUILTY
        t o Counts 1 through 22 t h e r e o f .                   The d e f e n d a n t ,   her counsel,               and
        t h e United S t a t e s Attorney f o r t h e Northern D i s t r i c t of Georgia
         ( " t h e Government"),           as c o u n s e l f o r t h e U n i t e d S t a t e s ,      subject t o
        a p p r o v a l b y t h e C o u r t , h a v e a g r e e d upon a n e g o t i a t e d p l e a i n t h i s
        c a s e , t h e t e r m s o f which are as f o l l o w s :
        1.       ADMISSION OF GUILT
               - The d e f e n d a n t a d m i t s - t h a t s h e i s p l e a d i n g - g u i l t y b e c a u s e s h e
        i s i n f a c t g u i l t y o f t h e crime(s) c h a r g e d i n t h e I n d i c t m e n t .
        2.       TRIAL RIGHTS
                 The d e f e n d a n t u n d e r s t a n d s   t h a t by pleading g u i l t y ,               she is
        g i v i n g up t h e r i g h t t o p l e a d ' n o t g u i l t y and t h e r i g h t t o b e t r i e d
        by a jury.              At a t r i a l , t h e d e f e n d a n t would have t h e r i g h t t o an
        attorney,           and i f t h e defendant could n o t a f f o r d an a t t o r n e y ,                       the
        Court would a p p o i n t one t o r e p r e s e n t h e r .                During t h e t r i a l ,            the
        d e f e n d a n t would b e presumed i n n o c e n t a n d t h e Government would have
        t h e b u r d e n o f p r o v i n g h e r g u i l t y beyond a r e a s o n a b l e d o u b t .                 The
        d e f e n d a n t would h a v e t h e r i g h t t o c o n f r o n t a n d c r o s s - e x a m i n e            the
        witnesses against her.                   I f t h e defendant wished, s h e c o u l d t e s t i f y
        o n h e r own b e h a l f        and p r e s e n t evidence i n h e r defense,                     and she
        c o u l d subpoena w i t n e s s e s t o t e s t i f y on h e r b e h a l f .              If,    however,
        t h e defendant d i d n o t wish t o t e s t i f y , t h a t f a c t c o u l d n o t b e u s e d d
                                                                                                  5
        a g a i n s t h e r . I f t h e d e f e n d a n t were f o u n d g u i l t y a f t e r a t r i a l , s h e
        would have             the right       to appeal t h e conviction.                      The d e f e n d a n t
        u n d e r s t a n d s t h a t b y p l e a d i n g g u i l t y , s h e i s g i v i n g up a l l o f t h e s e
         ,       -    Case 1:08-cr-00084-JTC-AJB   Document 15-2   Filed 05/13/2008   Page 2 of 14




~                    rights and there will not be a trial of any kind. The defendant
                     also understands that she ordinarily would have the right to appeal
                     her sentence and, under some circumstances, to attack the sentence
                                                            i


                     in post-conviction proceedings. By entering this Plea Agreement,
                     the defendant may be waiving some or all of those rights to appeal
                     or collaterally attack her sentence, as specified below.          Finally,
                     the defendant understands that, to plead guilty, she may have to
                     answer questions posed to her by the Court concerning the rights
                     that she is giving up and the facts of this case, and the
                     defendant's answers, if untruthful, may later be used against her
                     in a prosecution for perjury or false statements.
                     3.   MAXIMUM AND MANDATORY MINIMUM PENALTIES


    ~I
                          The defendant understands,that, based on her plea of guilty,
                     she will be subject to the following maximum and mandatory minimufi
                     penalties:
    I                      (a) Maximum term of imprisonment: (Counts 1-17) 20           ears on
    ~
    I
                               each count; (Counts 18-22) 10 years on each count.
                          (b) Mandatory minimum term of imprisonment: None.
                          (c) Term of supervised release: 3 years.
                          (dl Maximum fine: $250,000 on each count.
                          (e) Full restitution to all victims of the offense (s) and
                                relevant conduct.
                          (f) Mandatory special assessment: $2,200.'
                     The defendant understands that, before imposing sentence in this
                     case, the Court will be required to consider, among other factors,
                     the provisions of the United States Sentencing Guidelines.
                     Ultimately, it is within the Court's discretion to impose a
                     sentence up to and including the statutory maximum. The defendant
                     also understands that no one can predict her exact sentence at this
                     time .
             i
                     4.    ACCEPTANCE OF RESPONSIBILITY
                           The Government will recommend that the defendant receive the
        .    Case 1:08-cr-00084-JTC-AJB   Document 15-2     ~iled
                                                                0511312008     Page 3 of 14       ,



                                                                                                          I




            two-level adjustment for acceptance of responsibility pursuant to
            Section 3El.l of the Sentencing Guidelines, and the additional one-                       ,
            level adjustment if the offense level is 16 or higher.              However,
            the Government will not be required to recommend acceptance of
            responsibility    if,   after   entering      this   Plea   Agreement,    the
            defendant    engages    in    conduct   inconsistent        with   accepting
I
I           responsibility. Thus, by way of example only, should the defendant
I   -
            falsely deny or falsely attempt to minimize her involvement in
            relevant offense conduct, give conflicting statements about her
            involvement, fail to pay the special assessment, or participate in
            additional criminal conduct, including unlawful personal use of a
            controlled substance, the Government will not be               required to
            recommend acceptance of responsibility.
            5.   SPECIAL ASSESSMENT'\
                 The defendant understands that the Court will order her to pay               ,
            a special assessment in the amount of $2,200.
            6.   RIGHT TO STATE FACTS/MAKE RECOMMENDATIONS
                 The Government reserves the right to inform the Court and the
            Probation Office of all facts and circumstances regarding the
            defendant and this case, and to respond to any questions from the
            Court and the Probation Office and to any misstatements of fact or
            law. Except as expressly stated elsewhere in this Plea Agreement,
            the Government also reserves the right to make recommendations
            regarding application of the Sentencing Guidelines.
            7.   LIMITED WAIVER OF APPEAL
                 To the maximum extent permitted by federal law, the defendant
            voluntarily and expressly waives her right to appeal the conviction
            and sentence and the right to collaterally attack her conviction
            and sentence in any post-conviction proceeding, including a § 2255
            proceeding, on any ground, except that the defendant may file a
            direct appeal of a sentence higher than the otherwise applicable
            advisory sentencing guideline range.          The defendant understands
.    Case I:08-cr-00084-JTC-AJB                   Document 15-2 , Filed 0511312008                   Page 4 of 14




    t h a t t h i s P l e a Agreement d o e s n o t l i m i t t h e G o v e r n m e n t ' s r i g h t t o
    appeal,        b u t i f t h e Government a p p e a l s t h e s e n t e n c e i m p o s e d ,              the
    d e f e n d a n t may a l s o f i l e a c r o s s - a p p e a l '   of,her sentence.
    8.       DNA WAIVER
             The p a r t i e s a g r e e t h a t n o b i o l o g i c a l e v i d e n c e ( a s d e f i n e d i n
    1 8 U . S . C . S 3600A) h a s b e e n i d e n t i f i e d i n t h i s c a s e ; t h e r e f o r e , t h e
    d e f e n d a n t u n d e r s t a n d s a n d a g r e e s t h a t no b i o l o g i c a l e v i d e n c e w i l l
    b e p r e s e r v e d f o r DNA t e s t i n g .
    9.       FOIA WAIVER
             The     defendant          hereby      waives       all     rights,       whether        asserted
    d i r e c t l y o r by a r e p r e s e n t a t i v e ,     t o r e q u e s t o r r e c e i v e from a n y
    department o r agency o f t h e United S t a t e s any r e c o r d s p e r t a i n i n g t o
    t h e i n v e s t i g a t i o n o r p r o s e c u t i o n o f t h i s case, i n c l u d i n g , w i t h o u t
    limitation,          a n y r e c o r d s t h a t may b e s o u g h t u n d e r t h e Freedom o f
    Information A c t ,               5 U.S.C.     S 552, o r t h e P r i v a c y A c t o f 1 9 7 4 , 5
    U.S.C.      5 552a.
            FORFEITURE            -
            The d e f e n d a n t a g r e e s t h a t s h e s h a l l i m m e d i a t e l y f o r f e i t t o t h e
    U n i t e d S t a t e s a n y p r o p e r t y c o n s t i t u t i n g , o r d e r i v e d from, p r o c e e d s
    t h e d e f e n d a n t ob.tained, d i r e c t l y o r i n d i r e c t l y ,       as t h e r e s u l t o f
    t h e v i o l a t i o n s o f 1 8 U.S.C.        §   1 3 4 1 a l l e g e d i n Counts 1 through 17
    of   the     Indictment,            t o which t h e d e f e n d a n t        is pleading guilty,
    including b u t not limited t o t h e following:
                     (1)       C o r a l P i n k N i n t e n d o DS L i t e ;

                     (2)   ,   Olympus S t y l u s 710 D i g i t a l C a m e r a ;

                     (3)       H P p a v i l i o n Laptop,      S e r i a l #2CE528MJB;

                     (4)       B a r r i n g t o n Model 8 0 1 Oboe;

                     (5)       Gateway ' 838   GM       Computer,       Serial
                               #XAB5911010237, K e y b o a r d , Mouse, Power
                               Cord, and Speakers;

                     (6)       20" Axion F l a t P a n e l T e l e v i s i o n a n d Power
                               Cord;
                                                        1,
---   .       .-



      .   ,        ,   Case 1:08-cr-00084-JTC-AJB          Document 15-2                  Filed 05/13/2008       Page 5 of 14




                                   (7)    E l e c t r i c B l u e N i n t e n d o DS;
                                                                                      1

                                   (8)    HP   Pavilion               DV4000          Laptop,          Serial
                                          #2CE5280MQC;

                                   (9)    C r o s l e y M i n i B u b b l e r J u k e b o x (WR18-CR) ;

                                   ( 1 0 ) Axion 20" F l a t P a n e l T e l e v i s i o n ;

                                   (11) Bunn U l t r a - 2 F r o z e n D r i n k S y s t e m , W h i t e
                                        StainleSs Steel;

                                   ( 1 2 ) P o u l a n PB1842LT Lawn T r a c t o r w i t h 42"
                                           C u t t i n g Deck a n d 6 Speed, 1 8 HP B r i g g s
                                           and S t r a t t o n Engine;

                                   ( 1 3 ) M a k i t a G28001 2800 W a t t Power G e n e r a t o r ;

                               ,   ( 1 4 ) D e w a l t DC.6KTGA 1 8 - v o l t ,       6 ~ o o lC o r d l e s s
                                           Combo K i t ;

                                   (15') Honda Powered P r e s s u r e Washer 2600 P S I 5
                                         HP Comet Pump, 2 . 5 GPM, w i t h Wheels;

                                   (16) 42" Dual B i n Ba,gger;

                                   (17) 1 o f ' 2,         Auburn             White   Canopy      by    Logo
                                        Chair;
                                                                      .   .


                                   ( 1 8 ) 2 o f 2,       Auburn              White   Canopy      by    Logo
                                           Chair;

                                   ( 1 9 ) H u s q v a r n a 125BT Backpack B l o w e r ;

                                   ( 2 0 ) Coleman Gas Log P a t i o H e a r t h ;

                                   (21) 7.4          Ft        Outdoor          Stainless          Steel
                                        P r o p a n e / B u t a n e P a t i o H e a t e r w i t h Wheel;

                                   (22) C e n t u r i o n Euro-style Boat Cover;

                                   ( 2 3 ) S h a r p SD-EX220 1 6 0 W a t t S i n g l e CD/AM/FM
                                           Mi'cro     System- w i t h
                                                                  '     1-bit         Audio-Half
                                           Mirror-f i n i s h ;

                                   ( 2 4 ) P o u l a n P r o PP336 1 7 " S t r a i g h t S h a f t Gas
                                           Trimrner/Brushcutter, 31cc;
    ,   .   Case 1:08-cr-00084-JTC-AJB            Document 15-2              Filed 0511312008          Page 6 of 14




                       ( 2 5 ) 4 Lafuma Model 40804 RSX La                                Napoule
1                              R e c l i n e r Lounge [ c h a i r s ] , Green;

I                      ( 2 6 ) Coleman R o a d t r i p S p o r t , G r i l l ;                                        ,

                       ( 2 7 ) Y a r d Mac,hines 021G 4 . 0 Hp Gas P u s h Mower;

                       ( 2 8 ) H u f f y Main , > S t r e e t Women's        Comfort Bike;

                       ( 2 9 ) 1 of 2 , K u l a n a L u h i Women's C r u i s e r ~ i k e ;

                      ( 3 0 ) 2 o f 2 , K u l a n a L u h i Women's C r u i s e r B i k e ;

                      (31) Solar              (SOLES5000)            BOOSTER           PAC
                           R e c h a r g e a b l e 12V B a t t e r y B o o s t e r - 1 5 0 0
                           P e a k Amps, 3 6 0 CCA;

                      ( 3 2 ) M a k i t a 2 4 . 5 ~4 ~ C y c l e G a s B l o w e r ,         Model
                              BHX2500;

                      ( 3 3 ) Sima S t p - 1 0 0 0 D u a l - o u t l e t 1 0 0 0 Watt DC-AC
                              Power I n v e r t e r w i t h S o f t S t a r t ;

                      (34) P h i l i p s      32PF9630A           32"      Widescreen            LCD
                           HDTV;

                      ( 3 5 ) HP P a v i l i o n DV4130US 1 5 . 4 " N o t e b o o k PC;

                      ( 3 6 ) . I n f o c u s X2 M u l c t i m e d i a DLP P r o j e c t o r ;

                      ( 3 7 ) G a t e w a y 838GM Media C e n t e r D e s k t o p ;

                      ( 3 8 ) HP O f f i c e J e t 7 4 1 0 A l l - i n - o n e    Printer;

                      ( 3 9 ) S o n y MVCCD350 CD M a v i c a 3.2MP                      Digital
                              Camera W/ 3 x O p t i c a l Zoom;

                      ( 4 0 ) Olympus S t y l u s 7 1 0 7.1MP             U l t r a Slim
                              D i g i t a l Camera w i t h 3 x O p t i c a l Zoom;

                      ( 4 1 ) S o n y C y b e r s h o t DSCP200             7.2MP        Digital
                              Camera 3 x O p t i c a l Zoom;

                      ( 4 2 ) BenQ ~ ~ 7 3 7 ~ - ~ 'LCD
                                                     1 7M
                                                        " onitor;

                      ( 4 3 ) Olympus S t y l u s 7 1 0 7.1MP U l t r a S l i m
                              D i g i t a l Camera w i t h 3x O p t i c a l Zoom;
.   .    Case I:08-cr-00084-JTC-A,IB                 Document 15-2            Filed 0511312008            Page 7 of 14




                           (44) S i r i u s S p o r t s t e r Receiver;

                      .    (45) D r a p e r 207010 Luma                 4:3        Manual          Wall
                                Projection Screen;

                           ('46) A u b u r n Au E l i t e L e a t h e r M a n ' s W a t c h ;

                           (47) V o i t Competition              Soccer Foosball                Table
                                Game;

                           (48) B i s s e l l  7950      Proheat              Self-propelled
                                U p r i g h t Deep C l e a n e r ;

                           ( 4 9 ) P r o v i e w HV-177    - 1 7 " LCD TV               a n d Power
                                   Cord;

                          ( 5 0 ) Samsung LT-P1795W         1 7 " HDTV-ready                       LCD
                                  TV/computer D i s p l a y a n d Power C o r d ; ,

                          (5.1) Yamaha WaveRunner 1'11;

                          ( 5 2 ) B o u n t y H u n t e r T r a c k e r I V Metal D e t e c t o r ;

                          (53) Bushnell E l i t e 8x43 ~ a t e r p r o o f / ~ o g p r o o f
                               PC3 M a g n e s i u m B i n o , c u l a r ; a n d   '




                          ( 5 4 ) S y l v a n i a 6 6 2 0 ~20"~ ~F l a t P a n e l LCD TV
                                  w i t h B u i l t i n DVD P l a y e r .
                T h e d e f e n d a n t a c k n o w l e d g e s t h a t e a c h asset c o v e r e d b y t h i s
        agreement          is. s u b j e c t    to   forfeiture           pursuant            to    18    U.S.C.     §

        9 8 1 ( a ) (I)a n d 2 8 U.S.C.
                     (C)                              S 2461 (c) as p r o p e r t y c o n s t i t u t i n g o r
        d e r i v e d from proceeds o b t a i n e d d i r e c t l y o r i n d i r e c t l y as a r e s u l t
        o f t h e v i o l a t i o n s t o which t h e d e f e n d a n t i s p l e a d i n g g u i l t y .
                The       defendant       warrants        that        she     is       the    sole       owner     and
        t i t l e h o l d e r o f a l l o f t h e assets listed above,                       and t h e defendant
        w a r r a n t s t h a t s h e h a s n o t t r a n s f e r r e d , conveyed, o r encumbered h e r
        i n t e r e s t i n a n y o f t h o s e assets.          The d e f e n d a n t a g r e e s t o h o l d a l l ,
        l a w enforcement agents and t h e United S t a t e s ,                         i t s agents, and its
        employees harmless from a n y c l a i m s w h a t s o e v e r a r i s i n g i n connection
        with    the       seizure      or      forfeitur'e       of    any     asset         covered by          this
        agreement.


                                                             7
. Case 1:08-cr-00084-JTC-AJB                  Document 15-2             Filed 0511312008              Page 8 of 14




          The d e f e n d a n t h e r e b y w a i v e s a n d a b a n d o n s a l l i n t e r e s t i n any
  a s s e t d e s c r i b e d by t h i s agreement i n any a d m i n i s t r a t i v e o r j u d i c i a l
  f o r f e i t u r e proceeding, whether c r i m i n a l o r c i v i l , s t a t e o r f e d e r a l ,
 and t h e defendant agrees t h a t t h e f o r f e i t u r e s h a l l be accomplished
 e i t h e r a d m i n i s t r a t i v e l y o r j u d i c i a l l y a t t h e Government's o p t i o n .
 The     defendant           further       agrees        to     waive       all    constitutional              and
 s t a t u t o r y c h a l l e n g e s i n a n y manner ( i n c l u d i n g d i r e c t a p p e a l , h a b e a s
 c o r p u s , c o l l a t e r a l a t t a c k , o r a n y o t h e r means) t o a n y f o r f e i t u r e
 c a r r i e d o u t i n a c c o r d a n c e w i t h t h i s P l e a Agreement o n a n y g r o u n d s ,
 i n c l u d i n g t h a t t h e f o r f e i t u r e c o n s t i t u t e s an e x c e s s i v e f i n e o r
 punishment.              As t o a n y a s s e t d e s c r i b e d b y t h i s P l e a Agreement, t h e
 d e f e n d a n t h e r e b y w a i v e s t h e r e q u i r e m e n t s o f 1 8 U.S.C.           §   983, R u l e
 4 o f t h e F e d e r a l R u l e s o f C i v i l P r o c e d u r e , a n d S u p p l e m e n t a l R u l e C,
 r e g a r d i n g n o t i c e of s e i z u r e i n j u d i c i a l f o r f e i t u r e m a t t e r s and t h e
 r e q u i r e m e n t s o f F e d e r a l Rules of Criminal Procedure 7,                             11, 3 2 . 2 ,
 41,    a n d 43 a s t h e y a p p l y i n a n y manner t o a n y f o r f e i t u r e i s s u e .
          I f - t h e Government e l e c t s t o p r o c e e d a d m i n i s t r a t i v e l y ,               the
 defendant             hereby      consents       to      the     entry      of     a      declaration          of
 f o r f e i t u r e a n d w a i v e s t h e r e q u i r e m e n t s o f ,18 U. S . C .    §   983 r e g a r d i n g
                                                                        \
 notice           of     seizure      in    non-judicial            forfeiture             matters.            The
 defendant             acknowledges          that        assets      may      have        been        forfeited
 a d m i n i s t r a t i v e l y p r i o r t o t h e e x e c u t i o n of t h i s agreement, and t h e
 defendant             hereby      waives       any       interest          in     such        assets;         all
 c o n s t i t u t i o n a l , l e g a l , and e q u i t a b l e claims t o such a s s e t s ; and a l l
 defenses           to    the    forfeiture         of    such     assets         in      any proceeding,
 including             proper      notice,       timeliness          of      the       notice,         innocent
 ownership, defenses a r i s i n g i n connection with any p r o v i s i o n of 18
 U.S.C.       §    983, a n d e x c e s s i v e f i n e s .
         If       t h e Government e l e c t s t o p r o c e e d j u d i c i a l l y a g a i n k t a n y
 asset,       by         entering      into      this      Plea      Agreement,            the        defendant
 a u t h o r i z e s t h e Court t o e n t e r immediately a p r e l i m i n a r y o r d e r o f
 forfeiture              against     all     property         described by                this     agreement,
  case 1:08-cr-00084-JTC-AJB                   ~ocurne6t15-2           Filed 0511312008          Page 9 of 1-4




 c o n s e n t s t o t h a t o r d e r b-ecoming f i n a l a s t o h e r a t t h e t i m e o f
 e n t r y , a n d a g r e e s t h a t t h e o r d e r s h a l l become p a r t o f h e r s e n t e n c e
 a n d be i n c o r p o r a t e d i n t o t h e j u d g m e n t a g a i n s t h e r a u t o m a t i c a l l y a t
 t h e t i m e o f its e n t r y w i t h o u t f u r t h e r a c t i o n from t h e Court.                   If
 t h e f o r f e i t u r e i s t o be accomplished i n a p a r a l l e l c i v i l a c t i o n ,
 t h e d e f e n d a n t a u t h o r i z e s t h e c o u r t t o e n t e r a c i v i l Judgment a n d
. Order of       F o r f e i t u r e without f u r t h e r n o t i c e t o h e r and waives a l l
 d e f e n s e s t o f o r f e i t u r e a s d e s c r i b e d above.      To t h e e x t e n t t h a t t h e
 Government          institutes           or        has    instituted         any      civil       judicial
                                                I
 f o r f e i t u r e p r o c e e d i n g t o w h i c h t h e d e f e n d a n t i s o r becomes a p a r t y ,
 the     defendant         agrees        that        she   shall      be     responsible           for     her
 a t t o r n e y ' s fees a n d c o s t s i n c u r r e d i n c o n n e c t i o n w i t h t h a t a c t i o n .
         With r e g a r d t o a l l f o r f e i t a b l e a s s e t s , t h e d e f e n d a n t a g r e e s t o
 t a k e a l l s t e p s necessary t o ensure t h a t t h e p r o p e r t y i s n o t hidden,
 sold,       wasted,        destroyed,              or    otherwise        made      unavailable           for
 forfeiture.             I n addition,* t h e defendant                    agrees      not t o       file a
 S t a t e m e n t o f I n t e r e s t , Answer, C l a i m , o r P e t i t i o n f o r R e m i s s i o n f o r
 s u c h a s s e t i n a n y a d m i n i s t r a t i v e o r j u d i c i a l p r o c e e d i n g t h a t may b e
 i n i t i a t e d o r t h a t has been i n i t i a t e d .             To t h e e x t e n t t h a t t h e
 defendant has f i l e d a Statement of I n t e r e s t ,                         Answer,       Claim,       or
 P e t i t i o n f o r Remission f o r any such a s s e t ,                  t h e defendant hereby
 immediately withdraws t h a t f i l i n g .                    The d e f e n d a n t a g r e e s t o t a k e
 a l l s t e p s r e q u e s t e d b y t h e ~ n ' i t e dS t a t e s t o p a s s c l e a r t i t l e t o t h e
 f o r f e i t a b l e a s s e t s t o t h e United S t a t e s , t o cooperate t r u t h f u l l y
 a n d c o m p l e t e l y w i t h t h e Government i n a l l m a t t e r s r e l a t e d t o t h e
 f o r f e i t u r e o f assets i n c o n n e c t i o n w i t h t h e f a c t s a n d c i r c u m s t a n c e s
 g i v i n g rise t o t h i s p r o s e c u t i o n , and t o t e s t i f y t r u t h f u l l y i n any
 f o r f e i t u r e proceeding r e l a t i n g t o h e r cooperation.
          The d e f e n d a n t a c k n o w l e d g e s t h a t s h e i s n o t e n t i t l e d t o u s e
 f o r f e i t e d a s s e t s t o s a t i s f y any f i n e , r e s t i t u t i o n , c o s t of
 i m p r i s o n m e n t , o r a n y o t h e r p e n a l t y t h e ' C o u r t may i m p o s e upon t h e
 defendant i n addition t o f o r f e i t u r e .
,   .   Case 1:08-C~-OOO~~-JTC-AJB
                                Document 15-2       Filed 0511312008   Page 10 of 14       .


        11.   VIOLATION OF PLEA AGREEMENT
                                                                                               L
              If the defendant fails in any way to fulfill each one of her
        obligations under this Plea Agreement, the Government may elect to
        be released from its commitments under this Plea Agreement. The
        Government may then prosecute the defendant for any and all Federal            .

        crimes that she has committed related to this case, including any
        charges dismissed pursuant to this Plea Agreement, and may
        recommend to the Court any sentence for such crimes up to and
        including the maximum sentence. The defendant expressly waives any
        statute of limitations defense and any constitutional or statutory
        speedy trial defense to such a prosecution, except to the extent
        that such a defense could have been asserted this Plea ~ ~ r e e m e nis
                                                                               t
        filed.    In addition, the defendant agrees that, in such a
        prosecution, all admissions and other information that she has
        provided at any time, including all statements she has made and all
        evidence she has produced during proffers, interviews, testimony,
                                                                        \
        and   otherwise, may beL used     against   her;    regardless of     any-
        constitutional provision, statute, rule, or agreement to the
        contrary. Finally, the defendant understands that her violation of
        the terms of this Plea Agreement would not entitle her to withdraw
        her guilty plea in this case.
        12.   NON-BINDING AGREEMENT
              The defendant understands and agrees that the recommendations
                                                        1


        of the Government incorporated within this Plea Agreement or
        otherwise discussed between the parties are not binding on the
        Court and that the Court's failure to accept one or more of the
        recommendations will not constitute grounds to withdraw her guilty
        plea or to claim a breach of this Plea Agreement.
.   . Case 1:08-cr-00084-JTC-AJB   Document 15-2   Filed 0511312008   Page 11 of 14




      13.    NO OTHER AGREEMENTS
             There are no other agreements, promises, representations, or
      understandings between the defendant and the Government.


                                                                        ,   2008.



                                                   SIGNATURE (Defendant)
                                                   DONNA RENEE GAMBLE




      RANDY S. CHARTASH
       os-f44
      DATE
-       .   Case 1:08-cr-00084-JTC-AJB   Document 1 5 - 6    Filed 0511312008     Page 12 of 14




                           Certification of Defendant and Counsel

                 I have read the Indictment against me and have discussed it
    I
            with my attorney.     I understand the charges and the elements,of
            each charge that the Government would have to prove to convict me

            at a trial..    I have read the foregoing Plea Agreement and have
            carefully reviewed every part of it with my attorney.               I understand

            the terms and conditions contained in the Plea Agreement, and I

            voluntarily agree to them.     I also have discussed with my attorney

            the rights I may have to appeal or challenge my sentence, and I

            understand that the appeal waiver contained )in the Plea Agreement                 ,


            will prevent,me, with the narrow exceptions stated, from appealing

            my sentence or bhallenging my sentence in any post-conviction

            proceeding.    No one' has threatened or forced me to plead guilty,

            and no promises or inducements have been made to me other than

            those discussed in the Plea Agreement.          The discussions between my

            attorney and the Government toward reaching a negotiated plea in

            this case took place with my permission.         I am fully satisf'ied with
                                 provided to me by my attorney in this case.


            SIGNATURE (Defendant)

                 I am DONNA RENEE GAMBLE'S lawyer.          I have carefully reviewed

            the charges and the Plea Agreement with               my   client.        To my

    I




                                                    he         A77n;rDg
                                          ing an informed and vfluntary decision
         -   -                                                                                                     - --   - - -
    --
                          ,                         .   .   --                                                                          \
                                                                                                                                  --a



                                                        L




                         -    Case 1:08-cr-00084-JTC-A,IB            Document 15-2     Filed 0511312008      Page 13 of 14




                                               INFORMATION BELOW MUST BE TYPED OR PRINTED

I
                              Jimmv D . B e r r y                                    Donna R e n e e Gamble
                     ,        NAME    ( A t t o r n e y for Defendant)               NAME ( D e f e n d a n t )

                     I        2 3 6 Washinqton A v e n u e
                              STREET                                                 STREET



                     i
                      I       M a r i e t t a , GA 3 0 0 6 0
                              CITY & STATE               ZIP CODE                    C I T Y & STATE         ZIP CODE
                     I



                              PHONE NUMBER 7 7 0 - 4 2 2 - 5 4 3 4                   PHONE NUMBER
                                                                                            I




                              STATE BAR OF GEORGIA NUMBER

                     i        F i l e d i n Open C o u r t


                     I;
                     I
                              BY

                 I
                     I




                 I
                 'I

                     I




                 I




                 II
                 t

                 I


                 I
                 I
                 I
                 I
                 !
                                                                 \




                                                                           13
                 ,




                 !
Case 1:08-cr-00084-JTC-AJB    Document 15-2   Filed 0511312008    6age 14 of 14




                    U. S. DEPARTMENT OF JUSTICE
              Statement of Special Assessment Account

This statement refle'cts your special assessment only. There may be
other penalties imposed at sentencing.

                             ACCOUNT INFORMATION
 CRIMINRL ACTION,NO.:        1:08-CR-084-JTC-AJB
 DEFENDANT.'S NAME :         DONNA RENEE GAMBLE
 PAY THIS AMOUNT,,:          $2,200

INSTRUCTIONS:

           PAYMENT MUST BE MADE BY CERTIFIED CHECK OR MONEY ORDER
           PAYABLE TO:
                 CLERK OF COURT, U.S. DISTRICT COURT

                *PERSONAL CHECKS WILL NOT BE ACCEPTED*

           PAYMENT MUST REACH THE CLERK'S OFFICE WITHIN 30 DAYS OF
           THE ENTRY OF YOUR GUILTY PLEA
           PAYMENT SHOULD BE SENT OR HAND DELIVERED TO:
          Clerk of Court, U.S. District Court
          2211 U.S. Courthouse
          75 Spring Street, S.W.
          Atlanta, Georgia 30303

           (Do not Send Cash)

     4.   INCLUDE DEFENDANT'S NAME ON CERTIFIED CHECK OR MONEY
          ORDER

     5.   ENCLOSE THIS COUPON TO          INSURE    PROPER       AND   PROMPT
          APPLICATION OF PAYMENT
     6.   PROVIDE PROOF OF PAYMENT TO THE ABOVE-SIGNED AUSA WITHIN
          30 DAYS OF THE GUILTY PLEA
      Case 1:08-cr-00084-JTC-A,IB                Document 16        Filed 05/13/2008              Page 1 of 1

                            IN THE UNITED STATES DISTRICT COURT
                           FOR THE NORTHERN DISTRICT OF GEORGIA                                  .,
                                                                                                 . 'L' I.r . '; ...". -cp,'-?~
                                                                                                             i'!
                                                                                                                        .. .
                                                                                                                             ,?rc(er
                                                                                                                                 .Lt
                                      ATLANTA DIVISION                                                 ,
                                                                                                                   8

                                                                                                                       ,.   .;.   . - .,
                                                                                                                                           8




                                          i
UNITED STATES OF AMERICA
                                                         :    CRIMINAL NO.
                                                         :    1:08-CR-84J T C
                               I
VS.
                                                         .
DONNA RENEE GAMBLE
                                                                                                               -                           !   i
                                   ,   NOTICE OF SENTENCING DATE

TO:       Above riamed Defendant

          By direction of the Honorable Jack T. Camp, United States District Judge, YOU ARE HEREBY

ORDERED to appear in the United States District Court for the Northern Oistrict of Georgia in Courtroom

2106, Atlanta, on Tuesday, July 22, 2008, at 2:00 p.m., where sentence will be imposed.

          You will receive no further notice.

          If you are under bond, your failure to appear for sentencing on the above date will result in the
                 -.
forfeiture of your bond.

          IT IS FURTHER ORDERED that a Presentence Investigation and Report to this Court will be
                                                                                                                                                   I
completed in this regard.
                                                                                                                                                   I
DATE:             May 13,2008
                                                              James N. Hatten,-Clerk

                                                                     n        &              i
                                                                                                                                                   I
                  (Defendant)                                 BY:    Deborah H. Schrep er
                                                                     Courtroom Deputy Clerk

NOTE: No continuance can be granted except by Order of the Court. Any request should be brought to the
Court's attention as soon as possible by having your attorney call the Courtroom Deputy Clerk whose name
appears above. Newnan: 678-423-3025 1 Atlanta: 404-215-1525.
      1


                                                                                         'TO COUNTS: I-a-J-
                                                                             /-



PLEA                       (                  BOND                   (x)
TRIAL                      (   1              FEDERALCUSTODY         ( )                  of Total Counts: 1-22
NOLO                       (   1              STATE CUSTODY          (   )                ASST. U.S. A W :
NEGOTIATED PLEA            (   4              USM CUSTODY            (   )                John Russell Phillips


Copies:           Clerk                       U.S. Attorney                       U.S. Marshal
                  Defendant                   Counsel                             U.S. Probation Officer
                                                                                                         Page 1 of 5



                                     UNITED STATES DISTRICT COURT
                                     NORTHERN DISTRICT OF GEORGIA
                                           ATLANTA DIVISION

    UNITED STATES OF AMERICA

    4s-                                                                  Case No. 1:08-cr-084-JTC-1

    DONNA RENEE GAMBLE
                                                                         Defendant's Attorney:
                                                                         Jimmie Berry

                                      JUDGMENT IN A CRIMINAL CASE
                            (For Offenses Committed On or After November 1,1987)

    The defendant plead guilty to Counts 1 through 22 of the Indictment.
                                                                                                                       I
    Accordingly, the defendant is adjudged guilty of such count(s)which involves the following offense:
I


    Title & Section                             Nature of Offense                         Count No.

    18 U.S.C.   5 1341                          Mail Fraud                                1-17
                                                                                                                       I
    18 U.S.C. § 666(a)(1)(A)                    'Theft from an Organization      *        18-22
                                                 Receiving Federal Funds

    The defendant is sentenced as provided in pages 2 through 5 of this judgment. The sentence is imposed
    pursuant to the Sentencing Reform Act of 1984. '



    It isprdered that the defendant shall pay the special assessmentof $2,200 which shall be due immediately.

    IT IS FURTHER ORDERED that the defendant shall notify the United States attorney for this district within
    thirty days of any change of name, residence, or mailing address until all fines, restitution, costs and special
    assessments imposed by this judgment are fully paid.

    Defendant's Soc. Sec. No.         xxx-xx-                ..   Date of Imposition of Sentence:August 19, 2008
    Defendant's Date of Birth:
    Defendant's Mailing Address:



    Signed this the 21'' day of August, 2008.
                                                                                                           Page 2 of 5

    1:08-a-084-JTC-1 : DONNA RENEE GAMBLE

         I                                       IMPRISONMENT
                                                                                                       L

I
    The defendant is hereby committed to the custody of the United state; Bureau of Prisons to be imprisoned
!   for a term of THIRTY-MI0 (32) MONTHS.

    It is ordered that all of the Defendant's right, title and interest in the property identified in the Consent
    Preliminary Order of Forfeiture dated August 19,2008, which is hereby incorporated by reference, is forfeited.


    The Defendant shall surrender to the United States Marshal for this district at NOON at the designated facility,
    but not less than 30 days after the date of sentencing.




                                         .   .
                                                     RETURN

    I have executed this judgment as follows:




                                                                  i
    Defendant delivered on                                   to

    at                                                                  , with a certified copy of thisjudgment.



                                                                           UNITED STATES MARSHAL


                                                              By:
                                                                                           ~ e ~ u t Marshal
                                                                                                     ~ ' ~ . ~ .
                                                                                            Page 3 of 5




               : DONNA RENEE GAMBLE
1 :08-~-084-JTC-1                         .

                                              RESTITUTION


The defendant shall make restitution to the following person(s) in the following amounts:

        Name of Pavee                                     Amount of Restitution

        Georgia Institute of Technology                   $316,874.12
        Office of Legal Affairs
        (Attn: Randy Nordin)

The restitution is due immediately.
                                    L



                                                                                                            Page 4 of 5

        1:08-U-084-JTC-1 : DONNA RENEE GAMBLE

                                                SUPERVISED RELEASE

        Upon release from imprisonment, the defendant shall be on supervised release for a term of THREE (3)
        YEARS.


        Within 72 hours of release from the custody of the Bureau of Prisons, the defendant shall report in person to
        the probation office in the district to which the defendant is released.

        While on supervised release, the defendant shall not commit another federal, state, or local crime, shall -
        comply with the standard conditionsthat have been adopted by this Court, and shall comply with the following
        additional conditions:
!   r

        1.      The defendant shall perform 250 hours of coinmunity service as directed by the probation officer.

        2.      The defendant shall make a full and complete disclosure of finances and submit to an audit of
                financial documents, at the request of the United States Probation Officer.

        3.      ?he defendant shall make restitutionpayments from any wages she may earn in prison in accordance
                with the Bureau of Prisons Financial Responsibility Program.

        4.      'The defendant shall make payments toward the unpaid balance of the restitution imposed by this
                order in accordance with the Sliding Scale for Payment of Monetary Penalties adopted by this Court,
                but in no event less than $150 per month.

        5.      The defendant shall not incur new credit charges or open additional lines of credit without the
                approval of the probation officer and unless the defendant is in compliance with the installment
                payment schedule.                                                              C



        6.      The defendant shall not own, possess or have under his control any firearm, dangerous weapon or
                other destructive device.

        7.      The defendant shall submit to any reasonable search of his person, property (real, personal, or
                rental), residence, office, andlor vehicle(s), at a reasonable time and in a reasonable manner, based
                upon reasonable suspicion of contraband or evidence of a violation of a condition of release; failure
                to submit to a search may be grounds for revocation; the defendant shall warn any other residents
                that the premises may be subject to searches pursuant to this condition.

        8.      Pursuant to42 U.S.C. §14135a(d)(l)and 10 U.S.C. §1565(d), which requiresmandatory DNA testing
                for federal offenders convicted of felony offenses, the defendant shall cooperate in the collection of
                DNA as directed by the probation officer.
                                                                                                    Page 5 of 5

1:0&cr-084-JTG1 : DONNA RENEE GAMBLE

                        STANDARD CONDITIONS OF SUPERVISION

While the defendant is on supervised release pursuant to this judgment, the defendant shall not commit
another federal, state or local crime. In addition:

1.     The defendant shall not leave the judicial district without the permission of the court or probation
       officer;

2.     The defendant shall report to the probation officer as directed by the court or probation officer and
       shall submit a truthful and complete written report within the first five days of each month;

3.     The defendant shall answer truthfully all inquiries by the probation officer and follow the instructions
       of the probation officer;

4.     The defendant shall support his or her dependents and meet other family responsibilities;

5.     The defendant shall work regularly at a lawful occupation unless excused by the probation officer for
       schooling, training, or other acceptable reasons;.

6.     The defendant shall notify the probation officer within 72 hours of any change in residence or
       employment;

7.     The defendant shall refrain from the excessive use of alcohol and shall not purchase, possess, use,
       distribute, or administer any narcotic or other controlled substance, or any paraphernalia related to
       such substances, except as prescribed by a physician, and shall submit to periodic urinalysis tests
       as directed by the probation officer to determine the use of any controlled substance;

8.     The defendant shall not frequent places where controlled substances are illegally sold, used,
       distributed, or administered;

9.     The defendant shall not associate with any persons engaged in criminal activity, and shall not
       associate with any person convicted of a felony unless granted permission to do so by the probation
       officer;

10.    The defendant shall permit a probation officer to visit him or her at any time at home or elsewhere and
       shall permit confiscation of any contraband observed in plain view by the probation officer,

11.    The defend.ant shall notify the probation officer within 72 hours of being arrested or questioned by a
       law enforcement officer;

12.    The defendant shall not enter into any agreement to act as an informer or a special agent of a law
       enforcement agency without the permission of the court;

13.    As directed by the probation officer, the defendant shall notify third parties of risks that may be
       occasioned by the defendant's criminal record or personal history or characteristics, and shall permit
       the probation officer to make such notifications and to confirm the defendant's compliance with such
       notification requirement.
         1
         I
                                                               NATIONALSCIENCE FOUNDATION
                                                                      4201 WILSON BOULEVARD
         1                                                         ARLINGTON. VIRGINIA 22230

                                                                         JUN 1 7 2009


                                      OFFICE OF THE
                                     DEPUTY DIRECTOR




                                  VIA CERTIFIED MAIL - RETURN RECEIPT REQUESTED

                                  Donna Gamble
                                  Coleman Medium FCI
                                  P.O. Box 1032
                                  Coleman, FL 33521
                       --   ---                                  --    ---
                  --
                                                  -   -                                                      --
     I
     I
                                         Re: Debarment

                                  Dear Ms. Gamble:

                              On March 17, 2009, the National Science Foundation ('T\TSFyy-)    sent you a Notice of Proposed
                              Debarment in which NSF proposed to debar you fiom directly or indirectly obtaining the benefits
                              of Federal grants for five years. The Notice sets forth in detail the circumstances giving rise to
                              NSF's decision to propose your debarment. Specifically, NSF indicated in the Notice that the
                       .-     proposed debarment is based upon your conviction for multiple counts of mail fraud and thefi
II                            fiom an organization receiving Federal h d s . In that Notlce,SFprovldecl you with3mtyday-
                              to respondto the proposed debarment.

                              Over thirty days have elapsed and NSF has not received a response. Accordingly, you are
                              debarred until March 17, 2014. Debarment precludes you fiom receiving Federal financial and
                              non-financial assistance and benefits under non-procurement Federal programs and activities
                              unless an agency head or authorized designee makes a determination to grant an exception in
                              accordance with 2 CFR Section 180.135. Non-procurement transactions include grants,
                              cooperative agreements, scholarships,~fellowships,contracts of assistance, loans, loan guarantees,
                              subsidies, insurance, payments for specified use, and donation agreements.
             --                                _-        - - --- - - - - - -
                                                                                                                                   -   -L-

                              In addition, you are prohibited from receiving Federal contracts or approved subcontracts under
                              the Federal Acquisition Regulations ("FAR") at 48 CFR Subpart 9.4 for the period of this
                              debarment. 2 CFR Section 180.170. During the debarment period, you may not have supervisory
                              responsibility, primary management, substantive control over, or critical influence on, a grant,
                              contract, or cooperative agreement with any agency of the Executive Branch of the Federal
                              Government.
If you have any questions regarding the foregoing, please contact           Assistant General
Counsel, National Science Foundation, Office of the General Counsel, 4201 Wilson Boulevard,
Room 1265, Arlington, Virginia, 22230.




                                                  Sincerely,



                                                  Cora B. Marrett
                                                  Acting Deputy Director
